                UNITED STATES GOVERNMENT
                National Labor Relations Board
                Office of Inspector General

Memorandum

September

To:      Catherine McCoy
         Human Resources Director

From:    Jane E. Altenhofen
         Inspector General

Subject: Inspection                                 Agency Retirement Records

       We initiated this inspection in July 2005 to assess whether the National Labor
Relations Board (NLRB or Agency) is maintaining the appropriate records for retirement
deductions.

         The Agency does not maintain the records for employee retirement deductions.
The Department of the Interior's National Business Center (NBC), which provides
payroll services to the Agency, maintains the records for retirement deductions made
since September 2002. The Agency's previous retirement deductions records have been
sent to the Office of Personnel Management (OPM). NBC also certifies the retirement
records and submits them to OPM when an employee separates from the Agency.


SCOPE

       We reviewed laws and regulations related to retirement under the Civil Service
Retirement System (CSRS) and the Federal Employee Retirement System (FERS). We
reviewed guidance from OPM, including the CSRS and FERS Handbook for Personnel
and Payroll OfJices (CSRS and FERS Handbook), and guidance from NBC related to the
maintenance of retirement records. We interviewed staff in the Human Resources
Branch (HRB) to learn about the maintenance of retirement records. We also interviewed
employees at NBC to learn NBC's processes for maintaining retirement records.

       We conducted this review in July and August 2005. This review was done in
accordance with the Quality Standards for Inspections issued by the President's Council
on Integrity and Efficiency.
BACKGROUND

       Sections 8334 and 8422, Title 5, United States Code, state that agencies shall
deduct and withhold a percentage of an employee's basic pay for retirement. The
percentages are 7 percent for CSRS and 0.8 percent for FERS. The annuity that an
employee will receive at retirement is not based on the retirement deductions. Instead,
OPM uses a formula that is based on the employee's length of service and the employee's
average highest basic pay over any three consecutive years of creditable service. The
retirement deductions are relevant for two reasons. First, all employees who leave the
Federal government without being eligible to receive an immediate annuity may elect to
receive a refund of their retirement deductions. Second, the cumulative retirement
deductions are also provided by OPM at retirement so the annuitant can calculate the
portion of the annuity that is tax-free.

        The statutes also state that amounts deducted for retirement shall be entered on
individual retirement records. OPM Regulations state that every Federal agency having
employees subject to either CSRS or FERS shall initiate and maintain retirement
accounts for those employees as prescribed by OPM issuances. The Individual
Retirement Record (IRR), Standard Form (SF) 2806 / SF 3100, is used by OPM as the
basic record for determining the retirement benefits payable to separated employees and
their survivors. The IRR reflects the employee's retirement contributions for his or her
current service, pay rates, unused sick leave credit for civil service retirement purposes,
last day of pay, date and type of separation, and other data that is necessary for OPM to
determine retirement benefits.

        The CSRS and FERS Handbook states that the IRR should be prepared for each
new employee covered by CSRS or FERS. The agency's servicing payroll office is
responsible for preparing and maintaining the IRR. The payroll office also certifies the
IRRs and ensures the correctness of data in these records. The Agency has entered into
an agreement with NBC to provide payroll and personnel services to the NLRB. The
base level payroll services provided by NBC include the maintenance and certification of
retirement records. OPM's Benefits Administration Letter 01-324, Handling of
Individual Retirement Records When Discontinuing Payroll Services, dated September
26, 2001, states that a new payroll office must initiate the accumulation of individual
retirement record data for all affected employees as of the first day it has payroll
responsibility. The Agency's payroll services have been provided by NBC since
September 22, 2002.


RESULTS

Agency Responsibilities

       HRB confirmed that the Agency does not maintain records related to employee
retirement deductions. They said that NBC is the Agency's servicing payroll office and
handles maintaining the retirement records. They noted that NBC kept records of



                                             2
retirement deductions since the conversion to NBC in September 2002. They added that
retirement records under all previous retirement systems were forwarded to OPM. In a
memorandum dated April 24, 2002, the Human Resources Director informed all
employees that cumulative retirement deductions under the prior payroll system will be
closed out and sent to OPM and that information regarding cumulative contributions
under the prior system will be on the last Leave and Earnings Statement.

         The cumulative retirement deductions since the conversion to NBC are shown on
the employee's Leave and Earnings Statement. HRB noted that the current retirement
deductions are available through the Federal Personnel and Payroll System (FPPS). The
retirement deduction records from prior payroll systems are available by contacting
OPM's Retirement Operations Center in Boyers, Pennsylvania. HRB noted that
ultimately the responsibility for maintaining the documentation to verify the correctness
of retirement deduction information belongs with the employee.

NBC Responsibilities

       The NBC Client Interface Manual states that NBC is responsible for maintaining
retirement records for current employees. Staff at NBC stated that the IRRs are
maintained in the Retirement Subsystem, which is distinct from FPPS. NBC noted that
the pay history and the retirement deductions are transferred from FPPS to the Retirement
Subsystem. NBC also noted that client agencies such as the NLRB are unable to access
the Retirement Subsystem, but are able to request from NBC a copy of the IRR with the
retirement deductions and payroll history since NBC has maintained the IRR.

        NBC is also responsible for producing the final IRR, certifying that the IRR is
correct, and transmitting the IRR to OPM. Staff at NBC noted that the client agencies are
not involved in the processing of the IRR. NBC added that the only involvement of the
client agencies in the process is the forwarding of the employee's retirement forms to
NBC, which then inserts the certified IRR into the package and sends it to OPM.




                                            3
